                                                3003 Charnblee Tucker Rd
                                                   Atlanta, GA 30341




                                                   March 29,2004



TO:             Joseph F. Picciano


FROM:
                Field Office Director




The Office of Inspector General ( IG) conducted an audit of public assistance funds
                              Ceiba, Puerto Rico. The objective of the audit was to
                              ality accounted for and expended FEMA funds according
to federal regulati

                                           of $3.1 million from the uerto Rico Office of
                                                                           ide emergency
protective measures,                                                      a result of Hwricane
Georges in Septemb                                                        A funding for 4 large
                                                   vered the period of September 1998 to
                                                    ipality claimed $3,10 1,692 (see Exhibit) and
                                                     e 4 large projects and the 19 small projects.

The OIG performed the audit un r the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit       '


included tests of the Municipality's accounting records, a judgmental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.



1
 According to FEMA regulations, a large project costs $47,100 or more and a small project costs less than
$47,100.
                                RESULTS OF AUDIT 


The Municipality's claim included questioned cost of $483,008 (FEMA share $434,707)
resulting from excess charges for debris removal activities and insurance proceeds not
credited to FEMA projects.

A. Excess Charges for Debris Removal Activities. The Municipality's claim of
   $2,847,732 for transporting debris to temporary and final disposal sites was
   overstated by $415,184. Federal regulation (44 CFR 13.20) requires subrantees to
   maintain supporting documentation for all charges to FE A projects. For debris
   removal activities, this includes delivery tickets (see FEMA Guide 325) indicating the
   amount of debris delivered to the final disposal site.

   The Municipality claimed $1,027,732 under Project 05721 for transporting 44,684
   cubic yards of debris from 2 temporary sites to a final disposal site. However, the
   OIG determined that the Municipality's contractor had delivery tickets to support
   only 39,644 cubic yards of debris, representing $9 11,812 of cost. Therefore, the OIG
   questions excess charges of $1 15,920.

          unicipality's claim of $1,820,000 under Project 05720 for delivering 65,000
    cubic yards of debris to a temporary site was also over           s case, the amount
    of cubic yards delivered to the temporary site was not
    the Municipality for such deliveries, FEMA agreed to
    cubic yards delivered to the final site (39,644 cubic ya
                he estimated extent of compaction while s
                  nicipality was entitled to compensation
    54,3 12 cubic yards of debris. The OIG questions the $299,264 of excess charges.        4



  . Insurance Proceeds. Contrary to the Stafford Act, the unicipality9sclaim under two
    large projects included $67,824 of repair cost that were covered by insurance.
    Accordingly, the OIG questions these charges.

           unicipality claimed $46,920 under roject 0761 1 to repair the Nito Cortijo
    Stadium. This amount, plus $122,260 of anticipated insurance procee
    for the total disaster related project costs of $169,180. However, th
    had actual insurance recoveries of $152,890, or $30,630 more than the amount
    credited to the project.

    Under Project 076 13, the         lity claimed total project costs
    the Saco Ward Softball Par         sketball Court. However, the
    received $46,600 from its insurance company for these repairs, thus alleviating the
    need for FEMA funds.
                                   RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $483,008 in questioned cost.

            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the results of the audit with FE A officials on March 16, 2004, and
with grantee and Municipality officials on arch 18, 2004. Municipality officials
withheld comments until they could discuss the findings with former Municipality Officials
involved with administrating the FEMA projects.

Please advise the Atlanta Field Office-Audit Division by May 28, 2004, of the actions
taken to implement the OIG recommendations. Should you have any questions
concerning this report, please contact me at (770) 220-5242 or Salvador Maldonado-
Avila at (787) 296-3527.
                                                                Exhibit


                       Municipality of Ceiba
                   FEMA Disaster 1247 DR-PR
              Schedule of Claimed and Ouestioned Cost

Project    Amount          Amount           Amount
Number     Awarded         Claimed         Questioned



            $1,820,000      $1,820,000         $299,264   Finding A
             1,027,732       1,027,732          115,920   Finding A
                46,920          46,920           30,630   Fin
                57,590          37,194           37,194   Finding



                         Small Prolects
19 Small
Projects

 Total
